U.S. Department of                                                Office of Inspector General
Transportation                                                    Washington, D.C. 20590
Office of the Secretary
of Transportation


December 19, 2007

The Honorable James L. Oberstar
Chairman, Committee on Transportation
 and Infrastructure
U.S. House of Representatives
Washington, DC 20515

Dear Mr. Chairman:

This is in response to your October 5, 2007, request that we review the process used in
selecting the winning bid for the contract to rebuild the St. Anthony Falls/I-35W Bridge and
determine whether that process complied with the requirements of 23 U.S.C. 112 and 23
Code of Federal Regulations (CFR). Minnesota Department of Transportation (Mn/DOT)
was responsible for selecting the winning bid and awarding the contract. We briefed your
staff on December 12, 2007, on the results of our review. A copy of the materials that
summarize the briefing is enclosed.

To address your request, we met with officials from the Federal Highway Administration and
Mn/DOT to gain insight into their roles in the contract award process. We reviewed the
process followed to award the bridge replacement contract and researched applicable federal
and state laws, regulations, policies, and procedures. In addition, we visited the bridge site
and interviewed Mn/DOT officials to get a firsthand perspective. We also examined
Mn/DOT’s documentation supporting the contract award process.

Mn/DOT awarded the contract to Flatiron/Manson on October 8, 2007, using a design-build,
best-value contracting process. Although Flatiron/Manson’s bid had the highest price and
longest time frame for completion, the contract award process used by Mn/DOT followed the
requirements of 23 U.S.C. 112 and 23 CFR, Part 636, for design-build contracting.

Generally, 23 U.S.C. 112 requires highway projects to be constructed using contracts
awarded through competitive bidding to the lowest bidder; however, it also allows for
design-build contracting when approved by the Secretary of Transportation and as permitted
by applicable state and local law. Minnesota state law allows design-build contracts to be
awarded based on either lowest price or best value selection. 23 CFR, Part 636, states that


Control No. 2008-009
                                                                                        2
“best value selection” is a process in which proposals contain both price and qualitative
components, from which the winning bid is selected, based on a combination of those
components.

In contrast to Mn/DOT’s prior design-build, best-value contracting history, the I-35W
project is the first for which the winning bid had both the highest price and highest technical
score. Of the six other design-build, best-value contracts previously awarded by Mn/DOT,
five were awarded to the lowest price bidder. The variance between the sixth project’s
lowest and winning price was 1 percent. Of those five contract awards to the lowest bidder,
four of the winning bids also had the highest technical score. The variance between the two
projects’ highest technical score and the technical score of the winning bid was also 1
percent.

Proposals from bidders must be evaluated solely on the evaluation factors and subfactors
contained in the Request for Proposal. The evaluation factors should be tailored to the
acquisition. Although evaluation factors and goals differ among projects, we noted this
project’s factors emphasized public relations and aesthetics more heavily than previous
design-build projects that included those same factors. Mn/DOT also established a new
proposal evaluation factor for this project called geometric enhancements. The winning bid
received significantly higher technical scores than the other bidders for those evaluation
factors. For example, the winning bid included such features as: (1) allowing the public to
vote on specific design options for shape and color of the bridge support columns, retaining
wall texture and color, monument design, railing design, and bridge color and lighting; (2)
including elements such as under-bridge lighting, gateway monuments, and pond areas; and
(3) incorporating future Mn/DOT roadway changes into the design. The winning bidder
received a rating of “excellent” for proposing such features.

Our engineer’s limited review of contract-related documentation indicated that Mn/DOT
provided a reasonable basis for the scoring of the evaluation criteria, although inherent
subjectivity in the evaluators’ assignment of point scores for qualitative criteria exists.

In summary, the following factors influenced the selection of the winning bid: (1) deciding
to use a best-value selection process instead of awarding the contract based on low bid, (2)
placing greater emphasis on public relations and aesthetics than in previous design-bid
projects, (3) establishing a new proposal evaluation factor called geometric enhancements,
and (4) scoring certain elements of the winning bid as exceeding basic Request for Proposal
requirements.




Control No. 2008-009
                                                                                           3



If I can answer any questions or be of further assistance in this or any other matter, please
feel free to contact me at 202-366-1959, or my Deputy, Theodore Alves, at 202-366-6767.

Sincerely,



Calvin L. Scovel III
Inspector General

Enclosure


cc: FHWA Administrator




Control No. 2008-009
                                                                          Enclosure
                                                                          Page 1 of 10




               ST. ANTHONY FALLS (I-35W)
               BRIDGE REPLACEMENT PROJECT
               MINNEAPOLIS/ST. PAUL, MINNESOTA

               Briefing for Staff
               House Committee on Transportation and Infrastructure
               December 12, 2007




                   Table of Contents

                      Chairman Oberstar’s Request

                      Scope and Methodology

                      Summary of Results

                      Requirements of 23 U.S.C. 112 and 23 CFR 636

                      Contract Award Process

                      Proposal Evaluation Factors

                      Proposal Scoring



                                                                      2




Control No. 2008-009
                                                                                                    Enclosure
                                                                                                    Page 2 of 10




                 Chairman Oberstar’s Request


                 On October 5, 2007, we were asked to:

                      Review the process taken by the Minnesota Department of
                       Transportation (Mn/DOT) in selecting the winning bid for the contract
                       to rebuild the St. Anthony Falls/I-35W bridge that collapsed August 1,
                       2007.

                      Determine whether the requirements of 23 U.S.C. 112 and 23 CFR
                       were met.




                                                                                                3




                 Scope and Methodology

                 To address the Chairman’s concerns, we conducted a limited
                 review to understand how the winning bid was determined. We:

                      Reviewed Federal and state laws and Federal regulations,
                       policies, and procedures for the Design-Build (D-B) contract
                       award process.

                      Reviewed the process Mn/DOT followed to award the I-35W
                       Bridge Replacement Project contract.

                      Reviewed Mn/DOT’s documentation supporting the solicitation
                       and bid evaluation process.

                      Met with FHWA Headquarters and Minnesota Division officials.

                      Visited the I-35W bridge site and interviewed Mn/DOT officials
                       to get a firsthand perspective.
                                                                                                4




Control No. 2008-009
                                                                                                              Enclosure
                                                                                                              Page 3 of 10




                  Summary of Results
                      The contract award process used by Mn/DOT and FHWA
                       followed the requirements of 23 U.S.C. 112 and 23 CFR 636
                       that state D-B contracts can be awarded based on “best
                       value,” which considers both price and qualitative components.

                      Factors in the process that influenced the selection of the
                       winning bid:
                          Mn/DOT chose to use a best value selection process instead of
                           awarding based on low bid.
                          Mn/DOT emphasized public relations and aesthetics more than in
                           its previous D-B projects and established a new proposal
                           evaluation factor called geometric enhancements. These actions
                           reflect Mn/DOT’s plan to tailor the proposal evaluation factors to
                           the project.
                          The winning bid included elements scored as exceeding basic RFP
                           requirements (public selection of aesthetic features, elimination of
                           design problems, etc.).

                                                                                                       5




                 Requirements of 23 U.S.C. 112 and 23 CFR 636
                 The process Mn/DOT followed for this project was in accordance with
                 23 U.S.C. 112 and 23 CFR 636.

                    23 U.S.C. 112 generally requires highway projects to be constructed using
                     contracts awarded to the lowest bidder via competitive bidding; however, it
                     also allows D-B contracting when approved by the Secretary of Transportation
                     and as permitted by applicable state and local law. Minnesota state law
                     allows D-B contracts to be awarded based either on lowest price or
                     best value selection.

                    23 CFR 636, Design-Build Contracting, states:
                      “Best value selection” is a process in which proposals contain both price and qualitative
                       components and the winning bid is selected based on a combination of those factors.
                      Proposal evaluation factors and significant subfactors should be tailored to the
                       acquisition.
                      Proposals must be evaluated based solely on the factors and subfactors specified in the
                       solicitation.




                                                                                                       6




Control No. 2008-009
                                                                                                   Enclosure
                                                                                                   Page 4 of 10




                 Contract Award Process:
                 Mn/DOT Design-Build Project History

                      The I-35 project is the first D-B, best value contract awarded by
                       Mn/DOT for which the awardee had both the highest price and highest
                       technical score.

                      Since October 2002, Mn/DOT has awarded 6 D-B contracts using the
                       best value process.

                        Five of the six were awarded to the lowest price bidder.

                        Four of those five also had the highest technical score.

                        For the one project when the low bidder did not win, the difference
                         between the lowest and winning bid was 1 percent.

                        For the two projects in which the highest technical score did not win,
                         the difference between the highest and winning score was 1 percent.



                                                                                               7




                 Contract Award Process:
                 I-35W Bridge Replacement-Milestones (all 2007)
                    August 1:               The I-35W bridge collapsed.
                    August 4:               Mn/DOT issued the request for qualification (RFQ),
                                             seeking a statement of qualification (SOQ)
                                             from firms interested in the replacement contract.
                    August 8:               SOQs received. Five teams submitted SOQs, all
                                             were qualified and short listed. One dropped out of
                                             the competition.
                    August 23:              Mn/DOT released the request for proposals (RFP).
                    September 14:           Technical proposals received.
                    September 14-17:        Technical proposals evaluated.
                    September 18:           Financial proposals received.
                    September 19:           Mn/DOT opened financial proposals publicly,
                                             released average proposal evaluation technical
                                             scores and the estimated number of days to
                                             completion proposed by each team, then identified
                                             Flatiron/Manson as the apparent winner.
                    October 8:              Contract awarded to Flatiron/Manson.


                                                                                               8




Control No. 2008-009
                                                                                                                                    Enclosure
                                                                                                                                    Page 5 of 10




                   Contract Award Process:
                   Calculation of Best Value Contract Award

                   The Technical Review Committee determined that all of the
                   proposals met the technical requirements of the RFP and issued the
                   following scores:

                                                                                        Time
                                        Technical                                      (Days x           Adjusted-Bid (A+B)/
                                        Proposal      Price Proposal     Time         $200,000)        Technical Proposal Score
                        Bidder            Score             "A"         (Days)           "B"             Low Bid = Best Value

               Ames/Lunda                 55.98        $178,489,561       392         $78,400,000             $4,588,953

               C.S. McCrossan             65.91        $176,938,000       367         $73,400,000             $3,798,179

               Walsh/American Br          67.88        $219,000,000       437         $87,400,000             $4,513,848

               Flatiron/Manson            91.47        $233,763,000       437         $87,400,000             $3,511,129


                    The best value represents the contract that has the lowest adjusted-bid. The formula used to
                    compute the adjusted-bid was:
                    Adjusted-bid = (Price Proposed, “A” + (Days x $200,000 per day, “B”)) / Technical Proposal Score

                                                                                                                             9




                   Contract Award Process:
                   Scoring Differences in Key Criteria
                  The key technical criteria that drove the winning score are highlighted in yellow: experience and authority
                  of key individuals, aesthetics, enhancements, and public relations.
                                         Evaluation Criteria                                        Differences in Scores
                                                                       Total Points         Flatiron’s          Range of Scores -
                Criteria                                                Available        Technical Score         Other 3 Bidders
                Quality = 50
                 Experience and Authority of Key Individuals               20                 18.83               11.43 – 14.33
                 Extent of Quality Control/Quality Assurance               10                  8.80                5.70 – 7.12
                 Safety                                                    10                  8.60                7.43 – 8.57
                 Measures to Evaluate Performance in Construction          10                 7.90                 5.78 – 7.78
                Aesthetics = 20
                 Enhancements to the RFP                                   10                 9.78                 6.37 – 6.83
                 Approach to Involve Stakeholders                          10                 9.72                 4.90 – 6.13
                Enhancements = 15
                 Geometric Enhancements                                    10                 9.25                  .58 – 6.70
                 Structural Enhancements                                    5                 4.73                  1.38 - 3.16
                Public Relations = 15                                      15                 13.85               10.75 – 11.35
                Total             *rounding                                100               91.47*               55.98 – 67.88

                                                                                                                            10




Control No. 2008-009
                                                                                                                      Enclosure
                                                                                                                      Page 6 of 10




                 Proposal Evaluation Factors:
                 Project Goals and Evaluation Factors
                 23 CFR states proposal evaluation factors should be tailored to the project. Mn/DOT and
                 FHWA representatives agree that one of the goals of the project is to restore public trust.
                 Mn/DOT’s proposal evaluation factors reflected their plan to achieve project goals.
                 Project Goals in order from RFP                  Evaluation Factors                 Weights
                 Safety                                           Safety                               10
                 Quality – including ”ensure public confidence”   Quality                              40
                 Schedule                                         Note a                               N/A
                 Environmental Compliance                         Not a factor, Note b                  0
                 Budget                                           Note a                               N/A
                 Aesthetics                                       Aesthetics                           20
                 Public Relations                                 Public Relations                     15
                 Innovation                                       Not a factor, Note c                  0
                 Partnering                                       Not a factor, Note b                  0
                 Not a goal, Note c                               Enhancements                         15
                 Note a – “Schedule” and “Budget” are included in the award evaluation in the Adjusted Value
                           computation as “Time” and “Price,” respectively.
                 Note b – Mn/DOT stated this goal was included in the requirements of the RFP.
                 Note c – Mn/DOT stated “Innovation” is emphasized to bring new ideas or solutions to problems
                          and “Enhancements” encouraged this approach.

                                                                                                                 11




                 Proposal Evaluation Factors: Emphasis

                  Proposal evaluation factors emphasized public relations
                   and aesthetics more than previous D-B projects. Mn/DOT
                   also established a new proposal evaluation factor,
                   geometric enhancements.
                      The RFP instructed bidders to include the following in their
                       proposals:

                             Public relations:

                               The qualifications and experience of their public information
                                coordinator.

                               The approach and commitment to involve stakeholders, designers,
                                and construction personnel into the public relations process as well
                                to mitigate nighttime construction noise impacts on nearby
                                residences.

                                                                                                                 12




Control No. 2008-009
                                                                                                         Enclosure
                                                                                                         Page 7 of 10




                 Proposal Evaluation Factors: Emphasis (contd.)
                          Aesthetics:
                              Commitments to enhance the aesthetic requirements in the RFP.

                              The approach and commitments to involving stakeholders into the
                               design process and enhancements to the aesthetic features using
                               context sensitive design.

                          Geometric enhancements:

                              Commitments to enhance the geometric features of the project and
                               eliminate or minimize the 6 elements of the preliminary design released
                               in the RFP that did not meet current highway engineering standards
                               (called design exceptions).

                          The RFP Geometric enhancements section “encouraged” bidders to
                           develop plans to avoid the need to increase the height of two
                           overpasses during future reconstruction of those overpasses. This
                           reconstruction is not currently part of Mn/DOT’s 4 year Statewide
                           Transportation Improvement Program.



                                                                                                   13




                 Proposal Evaluation Factors: Emphasis (cont.)

                  Points assigned to public relations and aesthetics were
                   significantly higher than in previous D-B projects. For
                   example:

                          “Aesthetics” was assigned 20 points, 25 times the 0.8-
                           point average from two of six previous D-B projects.


                          “Public Relations” was assigned 15 points, almost 4 times
                           the 4-point average from four of six previous projects.
                  The “Geometric Enhancements” criteria is new. Ten out
                   of the total possible 100 points were assigned to this
                   category.


                                                                                                   14




Control No. 2008-009
                                                                                                   Enclosure
                                                                                                   Page 8 of 10




                 Proposal Evaluation Factors: Emphasis (cont.)
                 Proposal evaluation factors differ among projects:

                      23 CFR 636: Factors and significant subfactors should be tailored
                       to the project acquisition.

                      FHWA: “Given the unique scope, location, and goals of I-35W,
                       we anticipate that the evaluation criteria and relative weights
                       would be different from previous Mn/DOT D-B projects.”

                      The Design-Build Institute of America (a professional engineering
                       organization) guidance on evaluation factors states:
                          There are no universally accepted evaluation criteria for making best
                           value awards.
                          The best value approach allows award based on performance criteria
                           that will best ensure the successful completion of the project.
                          Differences in complexity, risk, scope, and objectives between
                           projects do not provide for a standard definition or method of
                           success.

                                                                                             15




                 Proposal Scoring:
                 Procedures Designed to Award Ratings Based on
                 Meeting and Exceeding RFP Requirements

                  Technical proposal scoring procedures awarded high scores for
                   features judged to exceed RFP requirements:

                          Technical scoring criteria were designed to award ratings of “Fair”
                           for meeting RFP requirements.
                          Ratings of “Good,” “Very Good,” or “Excellent” were awarded for
                           exceeding those requirements in different ways.

                  While all proposals were found to be technically acceptable (at
                   least “Fair” in meeting RFP requirements), the winning bid was
                   rated “excellent.”

                          The winning bid’s “excellent” rating was awarded because of
                           features judged to exceed the RFP requirements for these criteria:
                           experience and authority of key individuals, aesthetics,
                           enhancements, and public relations.


                                                                                             16




Control No. 2008-009
                                                                                                      Enclosure
                                                                                                      Page 9 of 10




                 Proposal Scoring:
                 Features Judged to Exceed RFP Requirements
                 The winning bid included features judged to exceed RFP
                 requirements, such as:
                      Experience and Authority of Key Individuals: Key individuals
                       have several years’ experience on major bridge, river crossing
                       projects and have all worked together previously.

                      Aesthetics:
                          “Arches, Water, Reflection” design theme included enhancements
                           such as: underbridge lighting, observation platforms at both river
                           piers facing the water, landscaping, gateway monuments, and pond
                           areas.
                          A public town-hall-type meeting, called a “charette,” allowed the
                           public to vote on specific design options for: bridge support shape
                           and color, retaining wall texture and color, monument design, railing
                           design, and bridge color and lighting. In response to our inquiries,
                           Mn/DOT said this is the first time such a process has been used on a
                           Mn/DOT project.


                                                                                                 17




                 Proposal Scoring:
                 Proposed Features Judged to Exceed
                 RFP Requirements (cont.)

                      Enhancements:

                          A design which allows options for reconstructing two overpasses in
                           the future. This reconstruction is not currently part of Mn/DOT’s
                           4-year Statewide Transportation Improvement Program.
                          Elimination of all six elements in the preliminary design released in
                           the RFP that did not meet current highway engineering standards.
                          The ability to increase the structural strength of the bridge by 10
                           percent in the future with minimal cost. Mn/DOT has no plan for
                           when this feature may be used.
                          Smart bridge technology.

                          Lowest maintenance cost.

                      Public relations: Sidewalk superintendent talks, bridge kiosks,
                       webcams, and educational outreach efforts for Minnesota
                       schools and students.

                                                                                                 18




Control No. 2008-009
                                                                                   Enclosure
                                                                                   Page 10 of 10




                 Proposal Scoring:
                 OIG Engineer Analysis of Scoring Procedures



                  A limited review of Mn/DOT’s contract related documentation
                  indicated that Mn/DOT provided a reasonable basis for the
                  scoring of the evaluation criteria, although inherent
                  subjectivity in the evaluators’ assignment of point scores for
                  qualitative criteria exists.




                                                                            19




Control No. 2008-009
                      United States Department of Transportation
                              Office of Inspector General
                      Compliance with Federal Accessibility Laws


The following pages contain Section 508-compliant versions of data that was presented in
the previous document in a non-compliant way. Although this page, and all pages that
follow, were not part of the original document, they have been added here to assist screen
readers that will be used to read this document electronically.
ST. ANTHONY FALLS (I-35W)
BRIDGE REPLACEMENT PROJECT
MINNEAPOLIS/ST. PAUL, MINNESOTA

Briefing for Staff
House Committee on Transportation and Infrastructure
December 12, 2007




    Final Design of St. Anthony Falls (I-35W Bridge)
Table of Contents

   Chairman Oberstar’s Request

   Scope and Methodology

   Summary of Results

   Requirements of 23 U.S.C. 112 and 23 CFR 636

   Contract Award Process

   Proposal Evaluation Factors

   Proposal Scoring



                                                   2
Chairman Oberstar’s Request


On October 5, 2007, we were asked to:

   Review the process taken by the Minnesota Department of
    Transportation (Mn/DOT) in selecting the winning bid for the contract
    to rebuild the St. Anthony Falls/I-35W bridge that collapsed August 1,
    2007.

   Determine whether the requirements of 23 U.S.C. 112 and 23 CFR
    were met.




                                                                             3
Scope and Methodology

To address the Chairman’s concerns, we conducted a limited
review to understand how the winning bid was determined. We:

   Reviewed Federal and state laws and Federal regulations,
    policies, and procedures for the Design-Build (D-B) contract
    award process.

   Reviewed the process Mn/DOT followed to award the I-35W
    Bridge Replacement Project contract.

   Reviewed Mn/DOT’s documentation supporting the solicitation
    and bid evaluation process.

   Met with FHWA Headquarters and Minnesota Division officials.

   Visited the I-35W bridge site and interviewed Mn/DOT officials
    to get a firsthand perspective.
                                                                     4
Summary of Results
   The contract award process used by Mn/DOT and FHWA
    followed the requirements of 23 U.S.C. 112 and 23 CFR 636
    that state D-B contracts can be awarded based on “best
    value,” which considers both price and qualitative components.

   Factors in the process that influenced the selection of the
    winning bid:
       Mn/DOT chose to use a best value selection process instead of
        awarding based on low bid.
       Mn/DOT emphasized public relations and aesthetics more than in
        its previous D-B projects and established a new proposal
        evaluation factor called geometric enhancements. These actions
        reflect Mn/DOT’s plan to tailor the proposal evaluation factors to
        the project.
       The winning bid included elements scored as exceeding basic RFP
        requirements (public selection of aesthetic features, elimination of
        design problems, etc.).

                                                                               5
Requirements of 23 U.S.C. 112 and 23 CFR 636
The process Mn/DOT followed for this project was in accordance with
23 U.S.C. 112 and 23 CFR 636.

   23 U.S.C. 112 generally requires highway projects to be constructed using
    contracts awarded to the lowest bidder via competitive bidding; however, it
    also allows D-B contracting when approved by the Secretary of Transportation
    and as permitted by applicable state and local law. Minnesota state law
    allows D-B contracts to be awarded based either on lowest price or
    best value selection.

   23 CFR 636, Design-Build Contracting, states:
     “Best value selection” is a process in which proposals contain both price and qualitative
      components and the winning bid is selected based on a combination of those factors.
     Proposal evaluation factors and significant subfactors should be tailored to the
      acquisition.
     Proposals must be evaluated based solely on the factors and subfactors specified in the
      solicitation.




                                                                                      6
Contract Award Process:
Mn/DOT Design-Build Project History

   The I-35 project is the first D-B, best value contract awarded by
    Mn/DOT for which the awardee had both the highest price and highest
    technical score.

   Since October 2002, Mn/DOT has awarded 6 D-B contracts using the
    best value process.

     Five of the six were awarded to the lowest price bidder.

     Four of those five also had the highest technical score.

     For the one project when the low bidder did not win, the difference
      between the lowest and winning bid was 1 percent.

     For the two projects in which the highest technical score did not win,
      the difference between the highest and winning score was 1 percent.



                                                                            7
Contract Award Process:
I-35W Bridge Replacement-Milestones (all 2007)
   August 1:          The I-35W bridge collapsed.
   August 4:          Mn/DOT issued the request for qualification (RFQ),
                       seeking a statement of qualification (SOQ)
                       from firms interested in the replacement contract.
   August 8:          SOQs received. Five teams submitted SOQs, all
                       were qualified and short listed. One dropped out of
                       the competition.
   August 23:         Mn/DOT released the request for proposals (RFP).
   September 14:      Technical proposals received.
   September 14-17:   Technical proposals evaluated.
   September 18:      Financial proposals received.
   September 19:      Mn/DOT opened financial proposals publicly,
                       released average proposal evaluation technical
                       scores and the estimated number of days to
                       completion proposed by each team, then identified
                       Flatiron/Manson as the apparent winner.
   October 8:         Contract awarded to Flatiron/Manson.


                                                                      8
    Contract Award Process:
    Calculation of Best Value Contract Award

    The Technical Review Committee determined that all of the
    proposals met the technical requirements of the RFP and issued the
    following scores:

                                                                    Time
                     Technical                                     (Days x          Adjusted-Bid (A+B)/
                     Proposal      Price Proposal      Time       $200,000)       Technical Proposal Score
     Bidder            Score             "A"          (Days)         "B"            Low Bid = Best Value

Ames/Lunda              55.98       $178,489,561       392       $78,400,000            $4,588,953

C.S. McCrossan          65.91       $176,938,000       367       $73,400,000            $3,798,179

Walsh/American Br       67.88       $219,000,000       437       $87,400,000            $4,513,848

Flatiron/Manson         91.47       $233,763,000       437       $87,400,000            $3,511,129


    The best value represents the contract that has the lowest adjusted-bid. The formula used to
    compute the adjusted-bid was:
    Adjusted-bid = (Price Proposed, “A” + (Days x $200,000 per day, “B”)) / Technical Proposal Score

                                                                                                       9
   Contract Award Process:
   Scoring Differences in Key Criteria
  The key technical criteria that drove the winning score are highlighted in yellow: experience and authority
  of key individuals, aesthetics, enhancements, and public relations.
                         Evaluation Criteria                                    Differences in Scores
                                                      Total Points        Flatiron’s         Range of Scores -
Criteria                                               Available       Technical Score        Other 3 Bidders
Quality = 50                                               50                44.13              30.34 – 37.80
  Experience and Authority of Key Individuals              20                18.83              11.43 – 14.33
  Extent of Quality Control/Quality Assurance              10                 8.80               5.70 – 7.12
  Safety                                                   10                 8.60               7.43 – 8.57
  Measures to Evaluate Performance in Construction         10                7.90                5.78 – 7.78
Aesthetics = 20                                            20                19.50             11.27 – 12.96
  Enhancements to the RFP                                  10                9.78                6.37 – 6.83
  Approach to Involve Stakeholders                         10                9.72                4.90 – 6.13
Enhancements = 15                                          15                13.98               1.96 – 9.86
  Geometric Enhancements                                   10                9.25                .58 – 6.70
  Structural Enhancements                                   5                4.73                1.38 - 3.16
Public Relations = 15                                      15                13.85              10.75 – 11.35
Total             *rounding                               100               91.47*             55.98 – 67.88

                                                                                                        10
Proposal Evaluation Factors:
Project Goals and Evaluation Factors
23 CFR states proposal evaluation factors should be tailored to the project. Mn/DOT and
FHWA representatives agree that one of the goals of the project is to restore public trust.
Mn/DOT’s proposal evaluation factors reflected their plan to achieve project goals.
Project Goals in order from RFP                  Evaluation Factors                 Weights
Safety                                           Safety                               10
Quality – including ”ensure public confidence”   Quality                              40
Schedule                                         Note a                               N/A
Environmental Compliance                         Not a factor, Note b                  0
Budget                                           Note a                               N/A
Aesthetics                                       Aesthetics                           20
Public Relations                                 Public Relations                     15
Innovation                                       Not a factor, Note c                  0
Partnering                                       Not a factor, Note b                  0
Not a goal, Note c                               Enhancements                         15
Note a – “Schedule” and “Budget” are included in the award evaluation in the Adjusted Value
          computation as “Time” and “Price,” respectively.
Note b – Mn/DOT stated this goal was included in the requirements of the RFP.
Note c – Mn/DOT stated “Innovation” is emphasized to bring new ideas or solutions to problems
         and “Enhancements” encouraged this approach.

                                                                                                11
Proposal Evaluation Factors: Emphasis

 Proposal evaluation factors emphasized public relations
  and aesthetics more than previous D-B projects. Mn/DOT
  also established a new proposal evaluation factor,
  geometric enhancements.
   The RFP instructed bidders to include the following in their
    proposals:

       Public relations:

         The qualifications and experience of their public information
          coordinator.

         The approach and commitment to involve stakeholders, designers,
          and construction personnel into the public relations process as well
          to mitigate nighttime construction noise impacts on nearby
          residences.

                                                                          12
Proposal Evaluation Factors: Emphasis (contd.)
      Aesthetics:
          Commitments to enhance the aesthetic requirements in the RFP.

          The approach and commitments to involving stakeholders into the
           design process and enhancements to the aesthetic features using
           context sensitive design.

      Geometric enhancements:

          Commitments to enhance the geometric features of the project and
           eliminate or minimize the 6 elements of the preliminary design released
           in the RFP that did not meet current highway engineering standards
           (called design exceptions).

      The RFP Geometric enhancements section “encouraged” bidders to
       develop plans to avoid the need to increase the height of two
       overpasses during future reconstruction of those overpasses. This
       reconstruction is not currently part of Mn/DOT’s 4 year Statewide
       Transportation Improvement Program.


                                                                               13
Proposal Evaluation Factors: Emphasis (cont.)

 Points assigned to public relations and aesthetics were
  significantly higher than in previous D-B projects. For
  example:

      “Aesthetics” was assigned 20 points, 25 times the 0.8-
       point average from two of six previous D-B projects.


      “Public Relations” was assigned 15 points, almost 4 times
       the 4-point average from four of six previous projects.
 The “Geometric Enhancements” criteria is new. Ten out
  of the total possible 100 points were assigned to this
  category.


                                                                   14
Proposal Evaluation Factors: Emphasis (cont.)
Proposal evaluation factors differ among projects:

   23 CFR 636: Factors and significant subfactors should be tailored
    to the project acquisition.

   FHWA: “Given the unique scope, location, and goals of I-35W,
    we anticipate that the evaluation criteria and relative weights
    would be different from previous Mn/DOT D-B projects.”

   The Design-Build Institute of America (a professional engineering
    organization) guidance on evaluation factors states:
       There are no universally accepted evaluation criteria for making best
        value awards.
       The best value approach allows award based on performance criteria
        that will best ensure the successful completion of the project.
       Differences in complexity, risk, scope, and objectives between
        projects do not provide for a standard definition or method of
        success.

                                                                         15
Proposal Scoring:
Procedures Designed to Award Ratings Based on
Meeting and Exceeding RFP Requirements

 Technical proposal scoring procedures awarded high scores for
  features judged to exceed RFP requirements:

       Technical scoring criteria were designed to award ratings of “Fair”
        for meeting RFP requirements.
       Ratings of “Good,” “Very Good,” or “Excellent” were awarded for
        exceeding those requirements in different ways.

 While all proposals were found to be technically acceptable (at
  least “Fair” in meeting RFP requirements), the winning bid was
  rated “excellent.”

       The winning bid’s “excellent” rating was awarded because of
        features judged to exceed the RFP requirements for these criteria:
        experience and authority of key individuals, aesthetics,
        enhancements, and public relations.


                                                                          16
Proposal Scoring:
Features Judged to Exceed RFP Requirements
The winning bid included features judged to exceed RFP
requirements, such as:
   Experience and Authority of Key Individuals: Key individuals
    have several years’ experience on major bridge, river crossing
    projects and have all worked together previously.

   Aesthetics:
       “Arches, Water, Reflection” design theme included enhancements
        such as: underbridge lighting, observation platforms at both river
        piers facing the water, landscaping, gateway monuments, and pond
        areas.
       A public town-hall-type meeting, called a “charette,” allowed the
        public to vote on specific design options for: bridge support shape
        and color, retaining wall texture and color, monument design, railing
        design, and bridge color and lighting. In response to our inquiries,
        Mn/DOT said this is the first time such a process has been used on a
        Mn/DOT project.

                                                                         17
Proposal Scoring:
Proposed Features Judged to Exceed
RFP Requirements (cont.)

   Enhancements:

       A design which allows options for reconstructing two overpasses in
        the future. This reconstruction is not currently part of Mn/DOT’s
        4-year Statewide Transportation Improvement Program.
       Elimination of all six elements in the preliminary design released in
        the RFP that did not meet current highway engineering standards.
       The ability to increase the structural strength of the bridge by 10
        percent in the future with minimal cost. Mn/DOT has no plan for
        when this feature may be used.
       Smart bridge technology.

       Lowest maintenance cost.

   Public relations: Sidewalk superintendent talks, bridge kiosks,
    webcams, and educational outreach efforts for Minnesota
    schools and students.

                                                                              18
Proposal Scoring:
OIG Engineer Analysis of Scoring Procedures



 A limited review of Mn/DOT’s contract related documentation
 indicated that Mn/DOT provided a reasonable basis for the
 scoring of the evaluation criteria, although inherent
 subjectivity in the evaluators’ assignment of point scores for
 qualitative criteria exists.




                                                           19
